No.

3fa flD&e
Supreme Court of tje Unttefc States;
Donald Dallas,
Petitioner,
v.
Warden,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

CERTIFICATE OF SERVICE

CHRISTINE A. FREEMAN
Executive Director
ALLYSON R. DULAC
Counsel ofRecord
Federal Defenders
For The Middle District of Alabama
817 S. Court Street
Montgomery, Alabama 36104
(334) 834-2099
Allvson dulac@fd.org

February 26, 2021

2
I, Allyson R. duLac an attorney appointed to represent Mr. Dallas under the
Criminal Justice Act of 1964, do hereby certify that on February 26, 2021, as
required by Rule 29.4(a) of the Rules of the Supreme Court of the United States, I
served the enclosed Motion to Proceed in Forma Pauperis and Petition for a Writ of
Certiorari, by depositing copies of the same in the United States Mail, first-class
postage, and addressed to: Henry M. Johnson, Assistant Attorney General, State of
Alabama, 501 Washington Avenue, Montgomery, AL 36130-0152, counsel for the
Respondent, Commissioner of the Alabama Department of Corrections. In further
compliance with Rule 29.3, on February 26, 2021,1 served the Motion to Proceed in
Forma Pauperis and Petition for a Writ of Certiorari to Henry M. Johnson, counsel
for the Respondent, by sending them via e-mail to hiohnson@ago.state.al.us

Respectfully submitted,
/si Allyson R. duLac
ALLYSON R. DULAC
Counsel ofRecord
Federal Defenders
For The Middle District of Alabama
817 S. Court Street
Montgomery, Alabama 36104
(334) 834-2099
Allyson dulac@fd.org

Executed on February 26, 2021

